Audit Report




OIG-06-027
Audit of the Financial Crimes Enforcement Network’s
Fiscal Year 2005 Balance Sheet


February 1, 2006



Office of
Inspector General
DEPARTMENT OF THE TREASURY
This report has been reviewed for public dissemination by the Office of Counsel
to the Inspector General. Information requiring protection from public
dissemination has been redacted from this report in accordance with the Freedom
of Information Act, 5 U.S.C. section 552.
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220


                                              February 1, 2006
     OFFICE OF
INSPECTOR GENERAL




            MEMORANDUM FOR WILLIAM J. FOX, DIRECTOR
                           FINACIAL CRIMES ENFORCEMENT NETWORK

            FROM:                   William H. Pugh
                                    Deputy Assistant Inspector General
                                       for Financial Management and Information
                                       Technology Audits

            SUBJECT:                Audit of the Financial Crimes Enforcement Network’s
                                    Fiscal Year 2005 Balance Sheet


            I am pleased to transmit the attached audited Financial Crimes Enforcement
            Network (FinCEN) balance sheet for fiscal year 2005. We contracted with the
            independent certified public accounting firm KPMG LLP to audit FinCEN’s balance
            sheet as of September 30, 2005. The contract required that the audit be performed
            in accordance with generally accepted government auditing standards; applicable
            provisions of Office of Management and Budget Bulletin No. 01-02, Audit
            Requirements for Federal Financial Statements; and the GAO/PCIE Financial Audit
            Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report on Financial Statements;
                •   Independent Auditors’ Report on Internal Control over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found that the balance sheet was fairly presented, in all
            material respects, in conformity with accounting principles generally accepted in
            the United States of America. However, KPMG LLP’s Report on Internal Control
            over Financial Reporting contained the following material weakness:

                •   Improvement is Needed in Accounting for Internal Use Software and Accrued
                    Liabilities

            KPMG LLP found no instances of reportable noncompliance with laws and
            regulations, exclusive of the Federal Financial Management Improvement Act of
            1996 (FFMIA), tested. However, KPMG LLP’s tests of FFMIA Section 803(a)
requirements disclosed one instance in which FinCEN’s financial management
systems did not substantially comply with applicable Federal accounting standards
and the United States Government Standard General Ledger at the transaction
level, which is related to the material weakness noted above.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the balance sheet or conclusions about the effectiveness of internal
control or compliance with laws and regulations. KPMG LLP is responsible for the
attached auditors’ reports dated November 21, 2005 and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5400, or a
member of your staff may contact Mike Fitzgerald, Director, Financial Audits at
(202) 927-5789.

Attachment
     DEPARTMENT OF THE TREASURY
FINANCIAL CRIMES ENFORCEMENT NETWORK

           Financial Statements

           September 30, 2005
                            DEPARTMENT OF THE TREASURY
                       FINANCIAL CRIMES ENFORCEMENT NETWORK


                                       Table of Contents



                                                              Page

Independent Auditors’ Report                                    2

Management’s Discussion and Analysis                           10

Financial Statements and Notes                                 16
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                        Independent Auditors’ Report on Financial Statements


Inspector General, U.S. Department of the Treasury and
Director, Financial Crimes Enforcement Network:

We have audited the accompanying balance sheet of the Department of the Treasury – Financial Crimes
Enforcement Network (FinCEN) as of September 30, 2005. The balance sheet is the responsibility of
FinCEN’s management. Our responsibility is to express an opinion on this balance sheet based on our
audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of the Office of Management
and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal Financial Statements. Those
standards and OMB Bulletin No. 01-02 require that we plan and perform the audit to obtain reasonable
assurance about whether the balance sheet is free of material misstatement. An audit includes consideration
of internal control over financial reporting as a basis for designing audit procedures that are appropriate in
the circumstances, but not for the purpose of expressing an opinion on the effectiveness of FinCEN’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements. An
audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our audit
provides a reasonable basis for our opinion.

In our opinion, the balance sheet referred to above presents fairly, in all material respects, the financial
position of FinCEN as of September 30, 2005, in conformity with accounting principles generally accepted
in the United States of America.

We have not audited the accompanying statements of net cost, changes in net position, financing,
budgetary resources, and custodial activity and, accordingly, do not express an opinion on those financial
statements.

The information in the Management Discussion and Analysis and the Required Supplementary Information
sections is not a required part of the financial statements, but is supplementary information required by
accounting principles generally accepted in the United States of America or OMB Circular A-136,
Financial Reporting Requirements, Part A, Form and Content of the Performance and Accountability
Report. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information. However, we did
not audit this information and, accordingly, we express no opinion on it.



                                                                       2
                                    KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                    a member of KPMG International, a Swiss association.
In accordance with Government Auditing Standards, we have also issued reports dated
November 21, 2005, on our consideration of FinCEN’s internal control over financial reporting and our
tests of its compliance with certain provisions of laws, regulations, and contracts, and other matters. The
purpose of those reports is to describe the scope of our testing of internal control over financial reporting
and compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in assessing the
results of our audits.




November 21, 2005




                                                     3
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




             Independent Auditors’ Report on Internal Control over Financial Reporting


Inspector General, U.S. Department of the Treasury and
Director, Financial Crimes Enforcement Network:

We have audited the balance sheet of the Department of the Treasury – Financial Crimes Enforcement
Network (FinCEN) as of September 30, 2005, and have issued our report thereon dated
November 21, 2005. We conducted our audit in accordance with auditing standards generally accepted in
the United States of America; the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and applicable provisions of
the Office of Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements for Federal
Financial Statements.

In planning and performing our audit, we considered FinCEN’s internal control over financial reporting by
obtaining an understanding of FinCEN’s internal control, determining whether internal controls had been
placed in operation, assessing control risk, and performing tests of controls in order to determine our
auditing procedures for the purpose of expressing our opinion on the balance sheet as of September 30,
2005. We limited our internal control testing to those controls necessary to achieve the objectives described
in Government Auditing Standards and OMB Bulletin No. 01-02. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982. The objective of our audit was not to provide assurance on FinCEN’s internal control over financial
reporting. Consequently, we do not provide an opinion thereon.

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued by
the American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect FinCEN’s ability to record, process, summarize, and
report financial data consistent with the assertions by management in the balance sheet. Material
weaknesses are reportable conditions in which the design or operation of one or more of the internal
control components does not reduce to a relatively low level the risk that misstatements, in amounts that
would be material in relation to the balance sheet being audited, may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions. Because of
inherent limitations in any internal control, misstatements due to error or fraud may occur and not be
detected.

In our audit of FinCEN’s balance sheet as of September 30, 2005, we noted one matter, discussed in
Exhibit I, involving the internal control over financial reporting and its operation that we consider to be a
reportable condition. We believe that the reportable condition presented in Exhibit I is a material weakness.



                                                                    4
                                       KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                       a member of KPMG International, a Swiss association.
Additional Required Procedures
As required by OMB Bulletin No. 01-02 in our audit of FinCEN’s balance sheet as of September 30, 2005,
with respect to internal control related to performance measures determined by management to be key and
reported in the Management Discussion and Analysis, we obtained an understanding of the design of
significant internal controls relating to the existence and completeness assertions. Our procedures were not
designed to provide assurance on internal control over reported performance measures and, accordingly,
we do not provide an opinion thereon.

                                                ******

This report is intended solely for the information and use of FinCEN’s management, the Department of the
Treasury’s Office of Inspector General, OMB, the Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 21, 2005




                                                     5
                                                                                                   Exhibit I


MATERIAL WEAKNESS

Improvement is Needed in Accounting for Internal Use Software and Accrued Liabilities

GAO Standards for Internal Control in the Federal Government states that transactions should be promptly
recorded to maintain their relevance and value to management in controlling operations and making
decisions. This applies to the entire process or life cycle of a transaction or event from the initiation and
authorization through its final classification in summary records. In addition, control activities help to
ensure that all transactions are completely and accurately recorded. These entries should be made at the
transaction level and should not need periodic updating during the year.

We noted the following weaknesses:

1. FinCEN capitalized internal use software only at year-end. Throughout the year the costs related to
   internal use software were incorrectly expensed.

2. We noted that FinCEN only reviews their undelivered orders for payables and accrued liabilities at
   year-end. Therefore, throughout the year, accounts payable and accrued liabilities may be misstated.

The effect of these weaknesses was that FinCEN needed to make year end adjusting entries in the amount
of approximately $10.7 and $3.3 million to its property and equipment and accounts payable balances,
respectively. The majority of the adjustment to property and equipment was caused by one large contract,
where the development costs were expensed during the year and reclassified as capital assets at year end.
The adjustment in the accounts payable balance was primarily due to rent abatement that was not recorded
as a future liability. Based on the weaknesses above, we noted FinCEN’s financial reports and statements
were inaccurate at interim periods during the year.

Recommendation:

We recommend that FinCEN’s management develop procedures that would allow recording of internal use
software capitalization as well as accounts payable and accrued liabilities as transactions occur and review
these transactions on at least a monthly basis.

Management Response:

Management concurs. We have developed and put in place procedures to meet the accrual objective and
the internal use software objective. These procedures include management review of these objectives on a
quarterly basis.

We have put manual procedures and review processes in place to address these issues for the quarterly
statements. Where feasible, we have taken steps to record accruals and capitalize internal use software at
the transaction level.




                                                     6
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury and
Director, Financial Crimes Enforcement Network:

We have audited the balance sheet of the Department of the Treasury – Financial Crimes Enforcement
Network (FinCEN) as of September 30, 2005, and have issued our report thereon dated
November 21, 2005. We conducted our audit of FinCEN’s balance sheet in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United States; and
applicable provisions of the Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
Requirements for Federal Financial Statements.

The management of FinCEN is responsible for complying with laws, regulations, and contracts applicable
to FinCEN. As part of obtaining reasonable assurance about whether FinCEN’s balance sheet as of
September 30, 2005 is free of material misstatement, we performed tests of FinCEN’s compliance with
certain provisions of laws, regulations, and contracts, noncompliance with which could have a direct and
material effect on the determination of balance sheet amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 01-02, including certain provisions referred to in the Federal
Financial Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations,
and contracts applicable to FinCEN. However, providing an opinion on compliance with laws, regulations,
and contracts was not an objective of our audit and, accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, exclusive of those referred to
in FFMIA, disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 01-02.

Under OMB Bulletin No. 01-02 and FFMIA, we are required to report whether FinCEN’s financial
management systems substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) requirements.

The results of our tests of FFMIA Section 803(a) requirements disclosed one instance in which FinCEN’s
financial management systems did not substantially comply with applicable Federal accounting standards
and the United States Government Standard General Ledger at the transaction level that is presented in
Exhibit I of our Report on Internal Control over Financial Reporting dated November 21, 2005.




                                                                        7
                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss association.
The results of our tests disclosed no instances in which FinCEN’s financial management systems did not
substantially comply with Federal financial management systems requirements.

This report is intended solely for the information and use of FinCEN’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 21, 2005




                                                  8
Management’s Discussion and Analysis
                             DEPARTMENT OF THE TREASURY
                        FINANCIAL CRIMES ENFORCEMENT NETWORK
                                  Management’s Discussion and Analysis
                                            September 30, 2005



Mission and Organizational Structure
The Financial Crimes Enforcement Network (FinCEN), a bureau within Treasury’s Office of Terrorism
and Financial Intelligence, is the largest overt collector of financial intelligence in the United States. Our
mission is to safeguard the financial system from the abuses of financial crime, including terrorist
financing, money laundering, and other illicit activity. This is accomplished primarily through the
administration of the Bank Secrecy Act; supporting law enforcement, intelligence, and regulatory agencies
through sharing and analysis of financial intelligence; building global cooperation with our counterpart
financial intelligence units; and networking people, ideas, and information.

Strategic Goals and Performance Goals
FinCEN’s strategic goals directly link to the Treasury Strategic Goal: “Preserve the Integrity of the
Financial Systems” and the national priority of “Dismantling the Financial Infrastructure of Terrorist
Networks.” To improve and clarify our strategic foundation, we developed and released an updated
Strategic Plan that revised our strategic objectives, and developed performance measures that link directly
to our strategic plan to monitor program execution. FinCEN’s structure was also reorganized to reflect our
functional priorities and alignment with the Strategic Plan. FinCEN’s four strategic goals and related
performance goals are listed below:

1. Protecting the financial system through effective administration of the Bank Secrecy Act (BSA).
   • Develop and implement appropriate anti-money laundering regulatory policy and regulations under
       the BSA and related authorities.
   • Provide guidance to support financial institutions in establishing risk-based programs that comply
       with the BSA.
   • Promote uniform and effective application of, examination for, and enforcement of the BSA.
   • Use regulatory means to support law enforcement in the investigation and prosecution of financial
       crimes.

2. Combating terrorism, money laundering, and other financial crime through analysis of BSA data and
   other relevant information.
   • Expand the production of analytic products that incorporate analysis of relevant classified
       information.
   • Produce policy-level assessments of terrorist financing and money laundering threats that fuse
       BSA data with all appropriate information sources.
   • Adjust our support of law enforcement investigations to better reflect our increased capabilities to
       perform complex data mining and analysis.
   • Apply analytical resources to support regulatory activity concerning the BSA.

3. Intensify international anti-money laundering collaboration through the global network of financial
   intelligence units.
   • Strengthen anti-terrorist financing and anti-money laundering policies and programs worldwide.
   • Enhance international standard-setting cooperation in the areas of terrorist financing, money
       laundering and other financial crimes.



                                                  10                                             (Continued)
                              DEPARTMENT OF THE TREASURY
                         FINANCIAL CRIMES ENFORCEMENT NETWORK
                                   Management’s Discussion and Analysis
                                             September 30, 2005



4. Facilitate regulatory compliance, data management, and information sharing through E-government.
   • Accelerate the secure flow of financial information from the industries subject to BSA
       requirements to the law enforcement agencies that use it to prevent, detect, and prosecute financial
       crime, including terrorist financing; and to the regulators who must assess the adequacy of that
       information as well as oversee BSA compliance.
   • Enhance communications between the government and the financial industry to ensure expeditious
       notification to law enforcement of possible terrorist or other illegal activity.

Performance Results
In FY 2005, we developed aggressive performance measures and milestones to support the achievement of
the above outcomes. We’re proud of our accomplishments and progress in implementing the Strategic
Goals of the Department and the National priorities. Our performance results are highlighted below.

To protect the financial system through administration of the Bank Secrecy Act (BSA), we executed
agreements with the five Federal Banking Agencies, the Internal Revenue Service, and more than half of
the state banking agencies. These agreements will provide oversight information needed to assess levels of
BSA compliance in covered industries, and will provide a framework for enhanced communication,
collaboration and information sharing between Federal and State agencies. The agreements and resulting
collaboration will result in more effective BSA administration.

In administering the Bank Secrecy Act (BSA), we work closely with our regulatory partners to take action
in cases of noncompliance with BSA regulations. We impose civil monetary penalties or lesser
enforcement remedies against violating institutions to promote and encourage greater compliance. To
measure effective, efficient, and uniform enforcement of anti-money laundering regulations, we monitor
the processing time for enforcement matters. The average time to process enforcement matters has
decreased from 1.6 years in 2001 to 1.3 years in FY 2005. Although we demonstrated efficiencies in
processing of civil penalties, it will be difficult to continue to show efficiencies as the number of industries
covered by the BSA increases. As a result of this growth, we anticipate the processing time to rise slightly
and accordingly have adjusted our future targets.

To combat terrorism, money laundering, and other financial crime through analysis and improved analytic
capabilities and processes, we established the Office of Intelligence Support within our Analytics Division.
[SENTENCE REDACTED]
                                                                                                         To
evaluate our analytic products, we conducted baseline surveys to determine their value to the financial
industry and law enforcement communities. In the future our support to law enforcement agencies will
focus on more complex analytical products, rather than the routine checks that law enforcement agencies
can directly perform over the secure web based system. As a result, we will use our analytic expertise
within the Offices of Law Enforcement Support and Intelligence Support for complex investigative,
intelligence support, lead development and assessments focused on issues within specific industry and
geographic regions. To measure the change in the nature of the work, we established a measure that
monitors the percent increase of complex analysis. In FY 2004 the percentage of complex analysis was
1.6% and in FY 2005 we completed 10%. We achieved progress by increased interaction with requesters;
implementing a marketing plan that provided guidance to law enforcement customers; and establishing
processes to solicit analytical requests at higher levels of complexity.

                                                   11                                              (Continued)
                             DEPARTMENT OF THE TREASURY
                        FINANCIAL CRIMES ENFORCEMENT NETWORK
                                  Management’s Discussion and Analysis
                                            September 30, 2005



To strengthen our international work, we hosted the Egmont Group’s annual plenary meeting in
Washington, D.C. The June 2005 meeting celebrated the 10th Anniversary of the Egmont Group of
Financial Intelligence Units (FIUs); we proudly affirm that we were one of the original members. Over the
past 10 years, the Egmont Group expanded to 101 FIUs in 2005. One of the main goals of the Egmont
Group is to create a global network by promoting international co-operation between FIUs. Each FIU has
made a commitment to share the information they collect with other units. Additionally, we participated in
two newly created Financial Action Task Force (FATF) Style Regional Bodies, the Middle East and North
Africa FATF, and the Eurasia FATF. Our global successes result from our work to expand and
systematically exchange financial intelligence information, improve the expertise and capabilities of
personnel who combat money laundering and terrorist financing areas. We foster better and more secure
communication among financial intelligence units through the application of technology. It is a challenge
to measure our global progress. We are reviewing how to measure the results of FinCEN training,
conferences, and on-site assessments.

To facilitate information sharing, we initiated a major system to make BSA data and analytical tools
available to authorized users through an easy-to-use, secure, web-based program. This critical initiative,
called BSA Direct, integrates the collection, retrieval and sharing components. BSA Direct will continue to
meet our law enforcement requirements for financial data allowing our staff to transition to more complex
analysis. To support this analytical transition, we observed an increase in law enforcement customers
directly accessing BSA data through the web-based system from 582 in FY 2001 to 3,941 in FY 2005,
meeting our target of 3,000. We achieved increased usage of the BSA data by increasing outreach and
training, and establishing Memoranda of Understanding with law enforcement agencies who access the
data.

Future Perspective
In the future we will continue to partner with financial institutions, who act as our first line of defense to
the security of our financial system, and work toward the goals of the BSA. We must ensure that the
financial industry has the systems, procedures and programs in place to protect institutions and systems
from the threats of financial crime; and ensure that a system of recordkeeping and reporting that provides
the government with the right information that will be highly useful in efforts to prevent, deter, investigate
and prosecute financial crime. In order to protect our financial system, we must continue to work closely
and collaboratively with the financial industry. This demands a partnership and on-going dialogue between
the government and the financial industry. To improve the dialogue, we must enhance our program for
implementing section 314 (a) of the USA PATRIOT Act and execute information sharing agreements with
the remaining State banking agencies. These actions will enhance our oversight and administration of the
BSA and make our financial system safer.

To achieve our goals we must:

•   Improve our outreach to financial industries newly covered by BSA regulations and strengthen our
    oversight of the BSA compliance examination activities of the federal regulators. The USA PATRIOT
    Act greatly expanded regulatory support needs by extending the BSA regulatory framework and anti-
    money laundering requirements to a vast array of financial industries. Outreach activities are critical to
    our ability to promote higher levels of compliance in covered industries.


                                                  12                                             (Continued)
                             DEPARTMENT OF THE TREASURY
                        FINANCIAL CRIMES ENFORCEMENT NETWORK
                                  Management’s Discussion and Analysis
                                             September 30, 2005



•   Strengthen overall analytical products through expertise in mining information, providing link analysis,
    and integrating data sources. Link analysis follows the money trail of criminals and terrorists, uncovers
    the funding source, shows the existence of terrorist networks, identifies systemic or geographic
    weaknesses, and helps predict trends and patterns. [SENTENCE REDACTED]

    To accomplish full integration, we will retool and build the required security related support structure.

•   Expand international terrorist financing information exchanges by upgrading the secure web system
    used by the Financial Intelligence Unit network. We house the Egmont Secure Web, which provides a
    unique opportunity to relay time-sensitive information requests rapidly among the governmental
    organizations in each of the 100 plus Egmont nations. We will utilize our leadership role within
    Egmont to implement information exchange policies and procedures to systematize terrorism-related
    financial record checks and analysis throughout the global network.

•   Enhance BSA data analysis and the BSA environment by upgrading the overall regulatory filing
    environment. We will accomplish this by improving marketing and outreach for the BSA E-Filing
    system and enhancing analytical tools to improve text retrieval search capabilities. To fulfill our E-
    Filing goal, we must reach out to the filers, educate them about system and benefits of E-Filing, and
    offer assistance to help them transition to E-Filing. We will improve our technology tools to enhance
    our capability for text retrieval. Technology now exists to extract meaning from unstructured text to
    identify patterns and associations among entities and topics. Technology will improve BSA data
    analysis by improving text identification and linking Suspicious Activity Report narratives. We plan to
    make these text-mining tools available to external agencies that access BSA data through BSA Direct.

Financial Statements
Highlights of our FY 2005 financial performance appear below. FinCEN is financed annually through
appropriations authorized by Congress. The FY 2005 enacted budget is $72 million and includes an across-
the-board rescission of .8%. Total assets were $50 million and total liabilities were $14 million at the end
of FY 2005.

During 2005, FinCEN continued building and improving its financial management operations. FinCEN
changed to a new service provider with integrated accounting, procurement, time and attendance and travel
systems. This will improve our ability to provide timely financial data to FinCEN leadership.

Systems and Internal Controls
FinCEN’s investment review board meets routinely to monitor ongoing IT projects and review proposed
capital investments. Financial management systems are in compliance with Federal financial systems
standards, Federal Manager’s Financial Integrity Act (FMFIA) Section 4 and Federal Financial
Management Improvement Act (FFMIA) except as noted in the audit report. FinCEN relies on the Bureau
of Public Debt Administrative Resource Center for administrative and accounting services, and uses their
systems. However, the requisition system and asset management systems are not integrated, require
duplicate data entry and manual reconciliation. FinCEN is working with Treasury and BPD on this issue.




                                                  13                                              (Continued)
                            DEPARTMENT OF THE TREASURY
                       FINANCIAL CRIMES ENFORCEMENT NETWORK
                                 Management’s Discussion and Analysis
                                           September 30, 2005



FinCEN completed an internal control review of its purchase card program and found that it has strong
safeguards against waste, fraud and abuse. FinCEN also reviewed its procedures for receiving and tracking
accountable property and identified additional controls needed to improve accountability.

Other Information/Issues
Two audits identified opportunities for improvement. First, the Office of Inspector General’s (OIG) audit
of BSA E-Filing found E-Filing to be an effective mechanism for filing BSA reports. The OIG
recommended that we conduct additional outreach among potential E-Filing users. Second, the
Government Accountability Office’s audit of the implementation of regulations related to customer
identification and information sharing procedures, determined that FinCEN, the federal financial
regulators, and self-regulatory organizations overcame challenges to create regulations that apply
consistently to a diverse financial sector and have used several outreach mechanisms to help the financial
industry understand and comply with Customer Identification requirements and information sharing
requirements. However, some implementation challenges remain.




                                                14                                           (Continued)
                          DEPARTMENT OF THE TREASURY
                     FINANCIAL CRIMES ENFORCEMENT NETWORK
                                 Management’s Discussion and Analysis
                                             September 30, 2005



                                    FinCEN Performance Measures

Performance Measures                                                                  FY 2004   FY 2005
                                                                                       Actual    Actual
Number of domestic and overseas outreach events conducted by the Regulatory             24        73
Policy and Programs Division in which we participated as a speaker/panelist
Average time to process enforcement matters (years)                                    1.0        1.3
Number of Memorandum of Understanding (MOU) agreements with the regulatory             New        41
agencies
Number of pieces of significant regulatory guidance developed                            9        12
Percentage of customers finding FinCEN’s analytic support valuable                      N/A      73%
Percentage of complex analytic work completed by FinCEN analysts                       1.6%      10%
Average time expended to perform financial institution reviews dealing with            New      62 days
compliance issues in response to MOU agreements with regulatory agencies
Number of collaborative analysis projects with foreign financial intelligence units     1         2
Percentage of targeted jurisdictions that receive technical assistance and training    N/A       26%
Number of Countries admitted to Egmont                                                 94        101
Number of FIUs connected to the network                                                84         93
Number of countries sponsored                                                           1          3
Number of users directly accessing BSA data through FinCEN’s web based                 2,181     3,941
system.
Share of BSA filings submitted electronically.                                         20%       29%
Cost per BSA Form E-Filed                                                              0.64      0.32
Number of requests for specific sensitive financial information transmitted from       198        92
federal law enforcement agencies to financial institutions




                                                   15
                                 DEPARTMENT OF THE TREASURY
                            FINANCIAL CRIMES ENFORCEMENT NETWORK
                                                  Balance Sheet
                                            As of September 30, 2005


                                       Assets (Note 2)
Intragovernmental:
   Fund balance with Treasury (note 3)                                 $   31,933,229
   Accounts receivable (note 4)                                                42,918
   Other (note 6)                                                             461,082
             Total intragovernmental                                       32,437,229
  Accounts receivable, net (note 4)                                             6,114
  Property and equipment, net (note 5)                                     17,899,022
  Other (note 6)                                                                3,822
             Total assets                                              $   50,346,187
                                     Liabilities (Note 7)
Intragovernmental:
   Accounts payable                                                    $    2,540,641
   Other (note 8)                                                           3,465,809
             Total intragovernmental                                        6,006,450
  Accounts payable                                                          4,662,506
  Other (note 8)                                                            3,356,494
             Total liabilities                                             14,025,450
Commitments and contingencies (note 10)
Net position:
  Unexpected appropriations                                                23,917,882
  Cumulative results of operations                                         12,402,855
             Total net position                                            36,320,737
             Total liabilities and net position                        $   50,346,187


See accompanying notes to financial statements.




                                                         16
                                DEPARTMENT OF THE TREASURY
                           FINANCIAL CRIMES ENFORCEMENT NETWORK
                                       Statement of Net Cost (Unaudited)
                                        Year ended September 30, 2005


                                  Program Costs (Note 11)
Protect the financial system:
   Gross costs                                                                          $   26,569,147
   Less earned revenue                                                                        (350,648)
              Net program costs                                                             26,218,499
Combat terrorism, money laundering, and other financial crime:
  Gross costs                                                                               22,904,437
  Less earned revenue                                                                         (302,283)
              Net program costs                                                             22,602,154
Intensify international anti-money laundering collaboration:
   Gross costs                                                                               4,580,888
   Less earned revenue                                                                         (60,457)
              Net program costs                                                              4,520,431
Facilitate compliance, data management, and information sharing through e-Government:
  Gross costs                                                                               37,563,277
  Less earned revenue                                                                         (495,743)
              Net program costs                                                             37,067,534
              Net cost of operations                                                    $   90,408,618


See accompanying notes to financial statements.




                                                       17
                                DEPARTMENT OF THE TREASURY
                           FINANCIAL CRIMES ENFORCEMENT NETWORK
                                Statement of Changes in Net Position (Unaudited)
                                        Year ended September 30, 2005


                                                                            Cumulative
                                                                             results of     Unexpended
                                                                            operations     appropriations
Beginning balances                                                      $     4,559,808      20,200,472
Budgetary financing sources:
  Appropriations received                                                            —       72,502,000
  Other adjustments                                                                  —       (1,142,298)
  Appropriations used                                                        67,642,292     (67,642,292)
Other financing sources:
  Transfer in without reimbursement                                           2,000,000              —
  Imputed financing from costs absorbed by others (note 15)                  28,609,373              —
              Total financing sources                                        98,251,665        3,717,410
Net cost of operations                                                      (90,408,618)             —
              Net change                                                      7,843,047        3,717,410
              Ending balances                                           $    12,402,855      23,917,882


See accompanying notes to financial statements.




                                                      18
                                  DEPARTMENT OF THE TREASURY
                             FINANCIAL CRIMES ENFORCEMENT NETWORK
                                  Statement of Budgetary Resources (Unaudited)
                                          Year ended September 30, 2005


                                  Budgetary Resources
Budget authority:
  Appropriations received                                                        $   72,502,000
Unobligated balance:
  Beginning of period                                                                12,434,003
Spending authority from offsetting collections:
  Earned:
     Collected                                                                        3,170,101
     Receivable from Federal sources                                                     39,030
  Change in unfilled customer orders without advance from Federal sources            (2,014,213)
              Subtotal                                                                1,194,918
Recoveries of prior year obligations                                                  1,361,449
Permanently not available                                                            (1,142,298)
              Total budgetary resources                                          $   86,350,072
                               Status of Budgetary Resources
Obligations incurred:
  Direct                                                                         $   76,156,077
  Reimbursable                                                                        1,202,907
              Subtotal                                                               77,358,984
Unobligated balance:
  Apportioned                                                                         7,536,577
Unobligated balance not available                                                     1,454,511
              Total status of budgetary resources                                $   86,350,072
                            Relationship of Obligations to Outlays
Obligated balance, net, beginning of period                                      $   10,554,930
Obligated balance, net, end of period:
  Accounts receivable                                                                   (42,918)
  Unfilled customer orders from Federal resources                                       (81,341)
  Undelivered orders                                                                 14,497,373
  Accounts payable                                                                    8,569,028
Outlays:
  Disbursements                                                                      65,585,506
  Collections                                                                        (3,170,101)
              Net outlays                                                        $   62,415,405


See accompanying notes to financial statements.




                                                       19
                                     DEPARTMENT OF THE TREASURY
                                FINANCIAL CRIMES ENFORCEMENT NETWORK
                                          Statement of Financing (Unaudited)
                                            Year ended September 30, 2005


Resources used to finance activities:
  Budgetary resources obligated:
     Obligations incurred                                                            $    77,358,984
     Less spending authority from offsetting collections and recoveries                   (2,556,367)
              Net obligations                                                             74,802,617
  Other resources:
    Transfers in without reimbursement                                                     2,000,000
    Imputed financing from costs absorbed by others                                       28,609,373
              Net other resources used to finance activities                              30,609,373
              Total resources used to finance activities                                 105,411,990
Resources used to finance items not part of the net cost of operations:
  Change in budgetary resources obligated for goods, services
     and benefits ordered but not yet provided                                             4,682,809
  Resources that fund expenses recognized in prior periods                                     9,074
  Budgetary offsetting collections and receipts that do not affect
     net cost of operations                                                                       —
  Other                                                                                    2,000,000
  Resources that finance the acquisition of assets                                        12,989,754
  Other resources or adjustments to net obligated resources
     that do not affect net cost of operations                                             1,455,123
              Total resources used to finance items not part of the
                net cost of operations                                                    21,136,760
              Total resources used to finance the net cost of operations                  84,275,230
Components of the net cost of operations that will not require or generate
  resources in the current period:
     Components requiring or generating resources in future periods:                         304,881
       Other                                                                               3,252,726
              Total components requiring or generating resources in future periods         3,557,607
Components not requiring or generating resources:
  Depreciation and amortization                                                            2,286,613
  Revaluation of assets or liabilities                                                       295,282
  Other                                                                                       (6,114)
              Total components of net cost of operations that will not require
                or generate resources                                                      2,575,781
              Total components of net cost of operations that will not require or
                generate resources in current period                                       6,133,388
              Net cost of operations                                                 $    90,408,618


See accompanying notes to financial statements.




                                                           20
                                DEPARTMENT OF THE TREASURY
                           FINANCIAL CRIMES ENFORCEMENT NETWORK
                                        Statement of Custodial (Unaudited)
                                         Year ended September 30, 2005


Revenue activity:
  Sources of cash collections:
    Civil monetary penalties                                                 $   10,000,000
              Total cash collections                                             10,000,000
  Accrual adjustments                                                                (45,966)
              Total custodial revenue                                              9,954,034
Disposition of collections transferred to others:
  Department of the Treasury                                                     (10,000,000)
  Decrease in amounts yet to be transferred                                           45,966
              Net custodial activity                                         $            —


See accompanying notes to financial statements.




                                                        21
                                DEPARTMENT OF THE TREASURY
                           FINANCIAL CRIMES ENFORCEMENT NETWORK
                                          Notes to Financial Statements
                                         Year ended September 30, 2005



(1)   Summary of Significant Accounting Policies
      (a)   Reporting Entity
            The Financial Crimes Enforcement Network (FinCEN) was formally established by the Treasury,
            Order 105-08, on April 25, 1990 and upgraded to bureau status October 26, 2001 in Public Law
            107-56. The mission of FinCEN is to safeguard the financial system from the abuse of financial
            crime, including terrorists, drug traffickers, and other criminals and isolate their support networks.
            This is accomplished primarily through the administration of the Bank Secrecy Act; supporting law
            enforcement, intelligence, and regulatory agencies through sharing and analysis of financial
            intelligence; building global cooperation with our counterpart financial intelligence units; and
            networking people, ideas, and information. To achieve our strategic plan, we have established the
            following Strategic Goals: Protect the financial system through effective administration of the Bank
            Secrecy Act; Combat terrorism, money laundering and other financial crime through analysis of the
            Bank Secrecy Act data and other relevant information; Intensify international anti-money laundering
            collaboration through the global network of Financial Intelligence Units; and Facilitate regulatory
            compliance, data management and information sharing through electronic government.

      (b)   Basis of Accounting and Presentation
            The financial statements have been prepared from FinCEN’s accounting records in conformity with
            accounting principles generally accepted in the United States of America. Accounting principles
            generally accepted for Federal entities are the standards prescribed by the Federal Accounting
            Standards Advisory Board (FASAB). FASAB is recognized by the American Institute of Certified
            Public Accountants as the official accounting standards-setting body of the United States
            Government.

            These financial statements are provided to meet the requirements of the Government Management
            Reform Act of 1994. The financial statements consist of a balance sheet, and the statements of net
            cost, changes in net position, budgetary resources, financing and custodial activity.

            FinCEN’s financial statements with respect to the balance sheet, the statement of net cost, and the
            statement of changes in net position are reported using the accrual basis of accounting. Under the
            accrual method, revenues are recognized when earned and expenses are recognized when a liability
            is incurred without regard to receipt or payment of cash. FinCEN’s statement of budgetary resources
            is reported using the budgetary basis of accounting. Budgetary accounting facilitates compliance
            with legal constraints and controls over the use of federal funds. It generally differs from the accrual
            basis of accounting in that obligations are recognized when new orders are placed, contracts
            awarded, and services received, that will require payments during the same or future periods.
            FinCEN’s statement of financing reconciles differences between the budgetary and accrual bases of
            accounting. FinCEN’s non-entity revenues are reported on the statement of custodial activity using a
            modified accrual basis of accounting. With this method, revenue from cash collections are reported
            separately from accounts receivable accruals, and cash disbursements are reported separately from
            payable accruals.



                                                         22                                             (Continued)
                          DEPARTMENT OF THE TREASURY
                     FINANCIAL CRIMES ENFORCEMENT NETWORK
                                    Notes to Financial Statements
                                   Year ended September 30, 2005



      Intragovernmental assets and liabilities result from activity with other Federal agencies. All other
      assets and liabilities result from activity with parties outside the Federal government, such as
      domestic and foreign persons, organizations, or governments. Intragovernmental earned revenues are
      collections or accruals of revenue from other Federal agencies, and intragovernmental costs are
      payments or accruals to other Federal agencies.

      While these financial statements have been prepared from the books and records of FinCEN, these
      financial statements are in addition to the financial reports used to monitor and control budgetary
      resources which are prepared from the same books and records.

      These financial statements should be read with the realization that they are for a component of a
      sovereign entity, that liabilities not covered by budgetary resources cannot be liquidated without the
      enactment of an appropriation, and that the payment of all liabilities other than for contracts can be
      abrogated by the sovereign entity.

(c)   Fund Balance with Treasury
      FinCEN does not maintain cash in commercial bank accounts. The U.S. Department of the Treasury
      processes cash receipts and disbursements. Fund balance with Treasury is composed of appropriated
      and trust funds that are available to pay current liabilities and finance authorized purchase
      commitments.

(d)   Accounts Receivable
      Accounts receivable represent amounts owed to FinCEN by other Federal agencies and the public.
      Intragovernmental accounts receivable represent amounts due from other Federal agencies under
      contractual agreements or other arrangements for services or activities performed by FinCEN. These
      receivables are expected to be fully collected.

      Public accounts receivable consist of administrative receivables from employees or suppliers and the
      levy of civil monetary penalties from non-Federal sources resulting from FinCEN’s regulatory
      responsibilities. Public accounts receivable are presented net of an allowance for doubtful accounts,
      which is determined by considering the debtor’s current ability to pay, the debtor’s payment record
      and willingness to pay, and an analysis of aged receivable activity.

(e)   Property and Equipment
      Property and equipment is recorded at cost and is depreciated using the straight line method over the
      estimated useful lives of the assets. FinCEN capitalizes property and equipment with an acquisition
      value of $25,000 or greater, and a useful life of two years or greater. FinCEN also capitalizes bulk
      acquisitions of like-kind property and equipment items that are individually valued under the
      capitalization threshold but are, in the aggregate, significant to FinCEN’s financial position or results
      of operations.

      Internal-use software includes purchased commercial off-the-shelf software (COTS), contractor
      developed software, and software that was internally developed by agency employees. For COTS
      software, the capitalized costs include the amount paid to the vendor for the software, for contractor

                                                   23                                              (Continued)
                          DEPARTMENT OF THE TREASURY
                     FINANCIAL CRIMES ENFORCEMENT NETWORK
                                    Notes to Financial Statements
                                  Year ended September 30, 2005



      developed software it includes the amount paid to a contractor to design, program, install and
      implement the software. Capitalized costs for internally developed software include the full cost
      (direct and indirect) incurred during the software development phase.

      Major alterations and renovations that increase an asset’s useful life are capitalized, while normal
      maintenance and repair costs are charged to expense as incurred. Upon legal transfer, donation, or
      approval for disposal of property and equipment, the value of the related asset and corresponding
      accumulated depreciation is removed.

      Leasehold improvements are amortized over the shorter of the term of the remaining portion of the
      lease, or the useful life of the improvement. Amortization of capitalized software begins on the date
      the software is placed in production (i.e., successfully installed and tested).

(f)   Liabilities
      Liabilities represent the probable and measurable future outflow or other sacrifice of resources as a
      result of past transactions or events. Since FinCEN is a component of the United States government,
      a sovereign entity, FinCEN’s liabilities cannot be liquidated without legislation that provides
      resources or an appropriation. Liabilities covered by budgetary resources are those liabilities for
      which Congress has appropriated funds or funding is otherwise available to pay amounts due.
      Liabilities not covered by budgetary or other resources represent amounts owed in excess of
      available, congressionally appropriated funds or other amounts, and there is no certainty that the
      appropriations will be enacted. The United States government, acting in its sovereign capacity, can
      abrogate liabilities of FinCEN arising from other than contracts.

(g)   Annual, Sick and Other Leave
      Annual leave is accrued as a liability when earned, and the accrual is reduced as leave is taken. The
      balance in the accrued annual leave account reflects current pay rates and leave balances, and is
      reported within other liabilities in the accompanying Balance Sheet. Sick leave and other types of
      non-vested leave are charged to operating costs as the leave is taken.

(h)   Workers’ Compensation
      A liability is accrued for actual and estimated future payments to be made for workers’ compensation
      pursuant to the Federal Employees’ Compensation Act (FECA). The actual liability is presented as a
      component of intragovernmental other liabilities, and the actuarial liability is presented within other
      liabilities in the accompanying Balance Sheet.

      FECA provides income and medical cost protection to covered Federal civilian employees injured on
      the job, employees who have incurred work-related occupational diseases and beneficiaries of
      employees whose death is attributable to a job-related injury or occupational disease. Claims
      incurred for benefits to employees are administered by the U.S. Department of Labor (DOL) which
      initially pays valid claims and subsequently seeks reimbursement from the Federal agencies
      employing the claimants. Reimbursement to DOL occurs approximately two years subsequent to the
      actual disbursement to the claimant. Budgetary resources for this intragovernmental liability are


                                                  24                                             (Continued)
                          DEPARTMENT OF THE TREASURY
                     FINANCIAL CRIMES ENFORCEMENT NETWORK
                                    Notes to Financial Statements
                                  Year ended September 30, 2005



      made available to FinCEN as part of its annual appropriation from Congress in the year in which the
      reimbursement takes place.

      Future workers’ compensation estimates are generated by DOL from an application of actuarial
      procedures developed to estimate the liability for FECA benefits. The actuarial liability for future
      workers’ compensation benefits includes the expected liability for death, disability, medical and
      miscellaneous costs for approved compensation cases, plus a component for incurred but not
      reported claims. The liability is determined using a method that utilizes historical benefit payment
      patterns related to a specific incurred period to predict the ultimate payments related to that period.
      Based on information provided by the DOL, the Department of the Treasury (Treasury) allocates the
      overall Treasury liability to Treasury components based on prior claims payment experience. The
      accrued liability is not covered by budgetary resources and will require future funding.

(i)   Unamortized Rent Abatement
      The terms of the operating lease between FinCEN and the General Services Administration (GSA)
      for the Vienna, VA facility contain a rent abatement period. During the rent abatement period no rent
      is payable to GSA. Although rent payments are not being made on a straight-line basis, FinCEN is
      recognizing rent expense on a straight-line basis over the lease term. Accordingly, an unamortized
      rent abatement liability is included in other intragovernmental liabilities in the accompanying
      Balance Sheet. This liability is being amortized on a straight-line basis over the lease term.

(j)   Pension Costs and Other Retirement Benefits
      Most FinCEN employees hired prior to January 1, 1984 participate in the Civil Service Retirement
      System (CSRS). As of September 30, 2005, FinCEN contributed 7 percent of base pay for regular
      employees.

      Employees hired after December 31, 1983 are automatically covered by the Federal Employee’s
      Retirement System (FERS) and Social Security. As of September 30, 2005, FinCEN contributed 11.2
      percent and 10.7 percent, respectively of base pay for the FERS basic benefit. A primary feature of
      FERS is that it offers a savings plan to which FinCEN automatically contributes 1 percent of base
      pay and matches employee contributions up to an additional 4 percent of base pay. FinCEN also
      contributes the employer’s Social Security matching share for FERS participants.

      FinCEN is not responsible for administering either CSRS or FERS. Therefore, FinCEN does not
      report CSRS or FERS assets, accumulated plan benefits or unfunded liabilities, if any, applicable to
      FinCEN employees. Reporting such amounts is the responsibility of OPM.

      Similar to CSRS and FERS, OPM, rather than FinCEN, reports the liability for future payments to
      retired employees who participate in the Federal Employees Health Benefits Program (FEHBP) and
      the Federal Employees Group Life Insurance Program (FEGLI). FinCEN does not contribute funds
      for the cost to provide health benefits and life insurance to its retirees.

      The estimated cost of providing CSRS and FERS retirement and FEHBP and FEGLI benefits to
      retirees is more than the amounts contributed by FinCEN and its employees. Federal entities are

                                                  25                                             (Continued)
                          DEPARTMENT OF THE TREASURY
                     FINANCIAL CRIMES ENFORCEMENT NETWORK
                                     Notes to Financial Statements
                                    Year ended September 30, 2005



      required to report the full cost of providing retirement benefits to include the cost financed by OPM.
      The additional expense representing the difference between the estimated cost and the employer and
      employee contributions for these programs is included as an expense and as an imputed financing
      source in FinCEN’s financial statements.

(k)   Entity Revenues, Financing Sources and Imputed Financing Sources
      FinCEN receives the majority of funding needed to support its programs through Congressional
      appropriations. Additional funding is obtained through exchange revenues.

      Appropriations are recognized as a financing source at the time the expenses are incurred or assets
      are purchased. Exchange revenue from reimbursable agreements is recognized when earned (i.e.,
      goods have been delivered or services rendered). Reimbursable work between Federal appropriations
      is subject to the Economy Act (31 U.S.C. 1535) or other statutes authorizing reimbursement. Prices
      for goods and services sold to other Federal agencies are generally limited to the recovery of actual
      costs. FinCEN recognizes as an imputed financing source the amount of pension and post-retirement
      benefit expense for current employees paid on behalf of FinCEN by the Office of Personnel
      Management, as well as amounts paid from the Department of Treasury Judgment Fund in settlement
      of claims, legal settlements, or court assessments. When costs that are identifiable to FinCEN and
      directly attributable to FinCEN’s operations are paid for by other agencies, FinCEN recognizes these
      amounts as imputed costs and financing sources.

      Imputed intradepartmental costs are the un-reimbursed portion of the full costs of goods and services
      received by FinCEN from a providing bureau that is part of the Department of the Treasury. FinCEN
      identifies intra-entity costs that meet the criteria for recognition (i.e. materiality, significance to the
      entity, directness of the relationship to entity operations, identifiably) that are not fully reimbursed
      and recognizes them as operating expenses and an imputed financing source.

(l)   Non-Entity Assets, Revenues and Disbursements
      Non-entity assets are those held by FinCEN that are not available for use by FinCEN. Non-entity
      accounts receivable reported on FinCEN’s Balance Sheet and non-entity revenue reported on
      FinCEN’s Statement of Custodial Activity includes civil monetary penalties. Civil monetary
      penalties represent amounts collected from non-Federal sources for violations of laws and
      regulations under FinCEN’s regulatory responsibility.

      Non-entity accounts receivable, custodial revenue and disposition of revenue is recognized when
      FinCEN is entitled to collect civil monetary penalties on behalf of the Federal government that have
      been established as a legally enforceable claim and collection is probable. Proceeds from the civil
      monetary penalty assessments are ultimately deposited in the Treasury General Fund based on
      established laws and regulations. These funds are not available to fund FinCEN’s operating activities
      and accordingly, an offsetting liability due to the Treasury General Fund is recorded for amounts
      recognized as non-entity accounts receivable.




                                                    26                                               (Continued)
                                 DEPARTMENT OF THE TREASURY
                            FINANCIAL CRIMES ENFORCEMENT NETWORK
                                            Notes to Financial Statements
                                          Year ended September 30, 2005



            Non-entity accounts receivable are presented net of amounts deemed uncollectible. An allowance for
            doubtful accounts is established based on the debtor’s current ability to pay, the debtor’s payment
            record and willingness to pay, and an analysis of aged receivable activity.

      (m)   Use of Estimates
            The preparation of the financial statements in accordance with generally accepted accounting
            principles requires management to make estimates and assumptions that affect the reported amounts
            of assets and liabilities, the disclosure of contingencies at the date of the financial statements, and the
            reported amounts of revenue and expenses during the reporting period. Actual results may differ
            from those estimates.

      (n)   Tax Status
            FinCEN, as a Federal agency, is not subject to Federal, state, or local income taxes and, accordingly,
            no provision for income taxes has been recorded in the accompanying financial statements.

(2)   Non-Entity Assets
      Non-entity assets as of September 30, 2005 consisted of the following:
      Civil penalties assessed                                                                  $        700,000
      Less allowance for doubtful collection                                                            (700,000)
                  Total non-entity assets                                                                      —
      Total entity assets                                                                              50,346,187
                  Total assets                                                                  $      50,346,187


      Non-entity accounts receivable represents civil monetary penalties due from non-Federal sources for
      violations of laws or regulations under FinCEN’s regulatory responsibility.

(3)   Fund Balance With Treasury
      Fund Balances
      Fund balance with Treasury as of September 30, 2005 consisted of the following components:
      Trust funds                                                                               $        134,043
      Appropriated funds                                                                              31,799,186
                  Total                                                                         $      31,933,229


      Trust funds consist of a violent crime reduction expenditure account that is designated by law as a trust
      fund. Receipts in this account are used for law enforcement related information technology projects.



                                                          27                                               (Continued)
                                DEPARTMENT OF THE TREASURY
                           FINANCIAL CRIMES ENFORCEMENT NETWORK
                                           Notes to Financial Statements
                                         Year ended September 30, 2005



      Appropriated funds consist of amounts appropriated annually by Congress to fund the operations of
      FinCEN.

      Status of Fund Balances
      The status of fund balance with Treasury as of September 30, 2005 consisted of the following:
      Unobligated balance:
        Available                                                                            $       7,536,577
        Unavailable                                                                                  1,454,511
      Obligated balance not yet disbursed                                                           22,942,141
                  Total                                                                      $      31,933,229


      The unobligated balance unavailable represents amounts appropriated in prior fiscal years that are not
      available to fund new obligations, but may be used to adjust obligations and disbursements that were
      recorded before the budgetary authority expired or to meet a bona fide need that arose in the fiscal year for
      which the appropriation was made.

      The obligated balance not yet disbursed represents amounts designated for payment of goods and services
      ordered but not received, or goods and services received but for which payment has not yet been made.

(4)   Accounts Receivable, Net
      Components of accounts receivable as of September 30, 2005 were as follows:
      Intragovernmental:
         Accounts receivable                                                                 $         42,918
      Public:
         Accounts receivable                                                                             6,114
         Civil penalties assessed                                                                      700,000
      Less allowance for doubtful collection                                                          (700,000)
         Public accounts receivable, net                                                                 6,114
                  Total accounts receivable, net                                             $          49,032


      Intragovernmental accounts receivable arise generally from the provision of goods and services to other
      Federal agencies.

      Accounts receivable from non-Federal sources consist of administrative receivables from employees or
      suppliers, and civil monetary penalties which have been billed or accrued and remain uncollected as of
      year-end. The collection of civil monetary penalties is a custodial activity performed by FinCEN and are
      not considered financing sources (revenues) available to offset the operating expenses of FinCEN and
      accordingly, a corresponding liability is recorded on the accompanying Balance Sheet. An allowance for
      doubtful accounts of $700,000 has been recognized to offset civil monetary penalties currently being
      litigated by the Department of Justice.
                                                        28                                             (Continued)
                                DEPARTMENT OF THE TREASURY
                           FINANCIAL CRIMES ENFORCEMENT NETWORK
                                          Notes to Financial Statements
                                         Year ended September 30, 2005



(5)   Property and Equipment, Net
      Property and equipment as of September 30, 2005 consisted of the following:

                                                         Useful                       Acumulated         Net
                                       Depreciation        life         Acquisition   depreciation/     book
                                         method        (in years)          cost       amortization      value
      Furniture, fixtures and
         equipment                         S/L            5–7       $    5,214,801     (3,535,951)      1,678,850
      Internal-use software                S/L             5             8,329,778     (3,897,599)      4,432,179
      Internal-use software in
         development                       N/A           N/A            11,734,339             —       11,734,339
      Leasehold improvements               S/L           3–5               601,829       (548,175)         53,654

                  Total                                             $   25,880,747     (7,981,725)     17,899,022



      Internal-use software in development represents actual (direct) costs and other indirect costs incurred for
      various software development projects not yet placed in service. The indirect costs consist of the applied
      overhead on FinCEN employee labor associated with the software in development. In fiscal year 2005, the
      total amount of internal-use software in development recorded was $12,184,331 of which $78,534 was
      indirect costs. Depreciation and amortization expense recognized during the year ended September 30,
      2005 was $2,286,613 (unaudited).

(6)   Other Assets
      Other assets as of September 30, 2005 consisted of the following:
      Intragovernmental:
         Advances and prepayments                                                            $        461,082
      Public:
         Accounts and prepayments                                                                       3,822
                  Total other assets                                                         $        464,904


      Intragovernmental advances and prepayments consist of amounts paid to the Department of the Treasury
      Working Capital Fund prior to FinCEN’s receipt of goods and services. All other advances and
      prepayments consist of employee travel advances.




                                                       29                                             (Continued)
                                DEPARTMENT OF THE TREASURY
                           FINANCIAL CRIMES ENFORCEMENT NETWORK
                                             Notes to Financial Statements
                                            Year ended September 30, 2005



(7)   Liabilities Not Covered by Budgetary Resources
      Liabilities not covered by budgetary resources represent amounts owed in excess of available appropriated
      or other amounts. The liquidation of liabilities not covered by budgetary resources is dependent on future
      congressional appropriations. As of September 30, 2005 liabilities not covered by budgetary resources
      consisted of the following:
      Intragovernmental:
         Other                                                                             $      3,253,573
      Public:
         Accrued annual leave                                                                     2,158,900
         Actuarial liability for workers’ compensation                                               43,949
                     Total public                                                                 2,202,849
      Total liabilities not covered by budgetary resources                                        5,456,422
      Total liabilities covered by budgetary resources or non-entity assets                       8,569,028
                     Total liabilities                                                     $     14,025,450


(8)   Other Liabilities
      Other liabilities as of September 30, 2005 consisted of the following:
                                                          Non-Current          Current             Total
      Intragovernmental:
         Accrued employee benefits                   $                —         212,236             212,236
         Accrued workers’ compensation                               847             —                  847
         Unamortized rent abatement                            2,880,986        371,740           3,252,726
                  Total intragovernmental                      2,881,833        583,976           3,465,809
      Public:
        Accrued payroll and employee
           benefits                                                  —         1,153,645          1,153,645
        Accrued annual leave                                         —         2,158,900          2,158,900
        Actuarial liability for workers’
           compensation                                          43,949              —               43,949
                  Total public                                   43,949        3,312,545          3,356,494
                  Total other liabilities            $         2,925,782       3,896,521          6,822,303


(9)   Leases (Unaudited)
      FinCEN leases office space from the General Services Administration (GSA) under long-term occupancy
      agreements. All of the office space occupied by FinCEN is leased by GSA from commercial sources. GSA
      space is assigned to FinCEN based upon current needs. FinCEN is not committed to continue to pay rent to

                                                          30                                        (Continued)
                              DEPARTMENT OF THE TREASURY
                         FINANCIAL CRIMES ENFORCEMENT NETWORK
                                        Notes to Financial Statements
                                       Year ended September 30, 2005



     GSA beyond the period occupied providing proper advance notice to GSA is made. However, it is
     expected that FinCEN will continue to occupy and lease office space from GSA in future years. The lease
     amount paid to GSA during fiscal year 2005 was $1,475,313.

     As of September 30, 2005 future lease payments due under GSA operating leases were as follows:
                      2006                                                 $     4,082,719
                      2007                                                       4,088,304
                      2008                                                       4,121,365
                      2009                                                       4,129,774
                      2010                                                       4,135,880
                      Thereafter                                                16,608,403
                                       Total future payments               $    37,166,445


(10) Commitments and Contingencies
     FinCEN is party to various administrative proceedings, legal actions, and claims. In the opinion of
     management, the probability is remote that the ultimate resolution of these matters, individually or in the
     aggregate, will have a material adverse effect on FinCEN’s financial position or the results of its
     operations.




                                                      31                                            (Continued)
                               DEPARTMENT OF THE TREASURY
                          FINANCIAL CRIMES ENFORCEMENT NETWORK
                                           Notes to Financial Statements
                                        Year ended September 30, 2005



(11) Intragovernmental Costs and Exchange Revenue (Unaudited)
     Intragovernmental costs and exchange revenue for the year ended September 30, 2005 consisted of the
     following:
     Program costs:
        Protect the financial system:
           Intragovernmental costs                                                        $       14,846,798
           Public costs                                                                           11,722,349
                  Total program costs                                                             26,569,147
         Intragovernmental earned revenue                                                           (350,648)
                  Net program cost                                                                26,218,499
         Combat terrorism, money laundering, and other financial crime:
           Intragovernmental costs                                                                12,798,964
           Public costs                                                                           10,105,473
                  Total program costs                                                             22,904,437
         Intragovernmental earned revenue                                                           (302,283)
                  Net program cost                                                                22,602,154
         Intensify international anti-money laundering collaboration:
            Intragovernmental costs                                                                2,559,794
            Public costs                                                                           2,021,094
                  Total program costs                                                              4,580,888
            Intragovernmental earned revenue                                                         (60,457)
                  Net program cost                                                                 4,520,431
         Facilitate compliance, data management, and information sharing
           through e-Government:
               Intragovernmental costs                                                            20,990,302
               Public costs                                                                       16,572,975
                  Total program costs                                                             37,563,277
            Intragovernmental earned revenue                                                        (495,743)
                  Net program cost                                                                37,067,534
                  Net cost of operations                                                  $       90,408,618


     The criteria used for this classification are that the intragovernmental costs relate to the source of goods
     and services purchased by the reporting entity, and not to the classification of related revenue. For example
     “exchange revenue with the public,” is when the buyer of the goods or services is a non-Federal entity.
     While with “intragovernmental costs,” the buyer and seller are both Federal entities. If a Federal entity
                                                        32                                            (Continued)
                               DEPARTMENT OF THE TREASURY
                          FINANCIAL CRIMES ENFORCEMENT NETWORK
                                         Notes to Financial Statements
                                       Year ended September 30, 2005



     purchases goods or services from another Federal entity and sells them to the public, the exchange revenue
     would be classified as “with the public,” but the related costs would be classified as “intragovernmental.”
     The purpose of this classification is to enable the Federal government to provide consolidated financial
     statements, and not to match public and intragovernmental revenue with costs that are incurred to produce
     public and intragovernmental revenue.

(12) Statement of Budgetary Resources (Unaudited)
     (a)   Apportionment Categories of Obligations Incurred
           Obligations incurred as reported on the Statement of Budgetary Resources for the year ended
           September 30, 2005 consisted of the following:
           Direct obligations:
              Category B                                                                     $     76,156,077
           Reimbursable obligations:
              Category B                                                                            1,202,907
                        Total                                                                $     77,358,984


           Apportionment categories are determined in accordance with the guidance provided in OMB
           Circular A-11, Preparation, Submission and Execution of the Budget. Category B represents
           resources apportioned for other time periods other than calendar quarters; for activities, projects, or
           objectives; or for any combination thereof. FinCEN only has Category B.

     (b)   Adjustments to Beginning Balance of Budgetary Resources
           Adjustments to budgetary resources available at the beginning of fiscal year 2005 consisted of the
           following:
           Receoveries of prior year obligations                                             $      1,361,449
           Cancellations of expired accounts                                                         (562,282)
           Enacted reductions                                                                        (580,016)
                        Total                                                                $        219,151


     (c)   Differences Between the Statement of Budgetary Resources and the Budget of the United States
           The Budget of the United States Government (also known as the President’s Budget), with actual
           numbers for fiscal year 2005, was not published at the time these financial statements were issued.
           The President’s Budget is expected to be published in February 2006.




                                                       33                                             (Continued)
                              DEPARTMENT OF THE TREASURY
                         FINANCIAL CRIMES ENFORCEMENT NETWORK
                                        Notes to Financial Statements
                                       Year ended September 30, 2005



(13) Statement of Financing (Unaudited)
     The Components Requiring or Generating Resources in Future Periods presented on the Statement of
     Financing represents the change between the beginning and ending balances for the Liabilities Not
     Covered by Budgetary Resources presented on the Balance Sheet and detailed in note 7.

(14) Statement of Custodial Activity (Unaudited)
     FinCEN assesses civil monetary penalties related to enforcement of the Bank Secrecy Act as authorized by
     31 U.S.C. 5321(b). FinCEN collects this custodial revenue and distributes the full amount of penalties
     collected to the Treasury General Fund. For the year ended September 30, 2005, cash collections and
     distributions to Treasury were $10,000,000.

(15) Imputed Financing Sources (Unaudited)
     FinCEN has imputed financing costs with the Office of Personnel Management as well as the Internal
     Revenue Service. FinCEN recognizes $26,871,384 as an imputed financing source from the Internal
     Revenue Service for the collection and processing of Bank Secrecy Act Data. A summary of the imputed
     financing costs by agency for the year ended September 30, 2005 is as follows:
      Office of Personnel Management                                                     $      1,737,989
      Internal Revenue Service                                                                 26,871,384
                 Total imputed financing costs                                           $     28,609,373




                                                    34
                                      DEPARTMENT OF THE TREASURY
                                 FINANCIAL CRIMES ENFORCEMENT NETWORK
                                    Required Supplementary Information (Unaudited)
                                               Year ended September 30, 2005



Statement of Budgetary Resources
Budgetary resources disaggregated by major accounts for the year ended September 30, 2005 consisted of the
following:

                                                                 Appropriated        Trust
                                                                    funds            funds          Total
Budgetary resources:
  Budget authority:
     Appropriations received                               $       72,502,000                 —    72,502,000
  Unobligated balance:
     Beginning of period                                           12,422,651          11,352      12,434,003
  Spending authority from offsetting collections:
     Earned:
        Collected                                                   3,170,101                 —     3,170,101
        Receivable from Federal sources                                39,030                 —        39,030
     Change in unfilled customer orders
        without advance from Federal sources                       (2,014,213)                —    (2,014,213)
                 Subtotal                                           1,194,918                 —     1,194,918
   Recoveries of prior year obligations                             1,343,053          18,396       1,361,449
   Permanently not available                                       (1,142,298)             —       (1,142,298)
                 Total budgetary resources                 $       86,320,324          29,748      86,350,072
Status of budgetary resources:
   Obligations incurred:
      Direct                                               $       76,155,859                218   76,156,077
      Reimbursable                                                  1,202,907                 —     1,202,907
                 Subtotal                                          77,358,766                218   77,358,984
   Unobligated balance:
     Apportioned                                                    7,507,047          29,530       7,536,577
   Unobligated balance not available                                1,454,511              —        1,454,511
                 Total status of budgetary resources       $       86,320,324          29,748      86,350,072
Relationship of obligations to outlays:
   Obligated balance, net, beginning of period             $       10,395,860         159,070      10,554,930
   Obligated balance, net, end of period:
      Accounts receivable                                             (42,918)             —          (42,918)
      Unfilled customer orders from Federal sources                   (81,341)             —          (81,341)
      Undelivered orders                                           14,392,860         104,513      14,497,373
      Accounts payable                                              8,569,028              —        8,569,028
   Outlays:
      Disbursements                                                65,549,127          36,379      65,585,506
      Collections                                                  (3,170,101)             —       (3,170,101)
   Net outlays                                             $       62,379,026          36,379      62,415,405




                                                            35
